Office of Audits
Office of Inspector General
U.S. General Services Administration




Audit of GSA’s Hiring
Practices
Report Number A110082/O/F/F11009
September 30, 2011
                       Office of Audits
                       Office of Inspector General
                       U.S. General Services Administration


                                         REPORT ABSTRACT
PURPOSE                             Audit of GSA’s Hiring Practices
The GSA Office of Inspector         Report Number A110082/O/F/F11009
General included this audit in      September 30, 2011
its FY 2011 Audit Plan to
address management’s
concerns about the Office of        WHAT WE FOUND
the Chief People Officer’s          Finding 1 – Hiring data used to calculate and report GSA’s time-to-hire
(OCPO) ability to attract and to    metrics to OPM is unreliable.
hire quality employees in a         Finding 2 – Deficiencies identified during Delegated Examining Unit (DEU)
timely manner.                      Self-Audits were not addressed timely by the OCPO and regional Human
                                    Resource (HR) offices.
OBJECTIVES                          Finding 3 – GSA’s efforts to fully comply with the President’s
The objectives of the audit were    Memorandum on “Improving the Federal Recruitment and Hiring Process”
to assess:                          should be improved.
(1) the OCPO’s compliance
with requirements established       WHAT WE RECOMMEND
by the Office of Personnel          The Chief People Officer (CPO) should:
Management (OPM) and the
Presidential Memorandum on          1. Develop a standardized methodology for collecting, documenting, and
                                       reporting hiring data across GSA. The CPO should also implement
“Improving the Federal
                                       procedures to verify and ensure that hiring metrics reported to OPM
Recruitment and Hiring
                                       are accurate.
Process;” and
(2) the efficiency and timeliness   2. Improve the system currently in place. Specifically, the CPO should
of GSA’s hiring process.               enforce the Human Resources Management Accountability System
                                       (HRMAS) policy to ensure that the regional HR offices respond to the
                                       results of the DEU audits within 30 days; and to ensure that corrective
                                       actions are reviewed and approved by the Office of Human Capital
                                       Management within the required timeframe.
                                    3. Seek clarification (and/or an exception) directly from the Office of
                                       Personnel Management, in consultation with the Office of
                                       Management and Budget, to ensure that GSA’s use of the hurdle
                                       method in this manner is in support of the Presidential Memorandum.
                                       Additionally, the CPO should implement its newly developed tools and
Finance and Information                resources as quickly as possible.
Technology Audit Office
(JA-F)
1275 First Street, NE
                                    MANAGEMENT’S COMMENTS
Suite 227                           Management generally agreed with our findings and recommendations.
                                    See the CPO’s written response to our draft report in Appendix D.
Washington, DC 20417
(202) 357-3620
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 30, 2011
 TO:              Anthony E. Costa
                  Chief People Officer (C)

 FROM:            Jeffrey C. Womack
                  Program Director, Finance and Information Technology Audit Office (JA-F)
 SUBJECT:         Audit of GSA’s Hiring Practices
                  Report Number A110082/O/F/F11009


This report presents the results of our audit of GSA’s hiring practices. Our findings and
recommendations are summarized in the Report Abstract. Instructions regarding the
audit resolution process can be found in the email, which transmitted this report.

Your written comments to the draft report are included in Appendix D of this report.

If you have any questions regarding this report, please contact me at (202) 357-3620 or
Jeffrey.Womack@gsaig.gov.

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.
Table of Contents
Introduction .............................................................................................................. 1
Objectives .................................................................................................................. 2


Results
Finding 1 – Hiring data used to calculate and report GSA’s time-to-hire metrics to
                 OPM is unreliable. ................................................................................... 3
                 Recommendation 1 ................................................................................. 4
Finding 2 – Deficiencies identified during Delegated Examining Unit (DEU)
                 Self-Audits were not addressed timely by the OCPO and regional HR
                 offices. ..................................................................................................... 4
                 Recommendation 2 ................................................................................. 5
Finding 3 – GSA’s efforts to fully comply with the President’s Memorandum on
            “Improving the Federal Recruitment and Hiring Process” should be
            improved. ................................................................................................ 5
                 Recommendation 3 ................................................................................. 7
Internal Controls ......................................................................................................... 7


Conclusion................................................................................................................ 8

Appendixes
Appendix A – Scope and Methodology .............................................................. A-1
Appendix B – GSA Office of the Chief People Officer Organization Chart ..... B-1
Appendix C – OPM End-to-End 80-Day Hiring Model........................................ C-1
Appendix D – Management’s Comments ........................................................... D-1
Appendix E – Report Distribution ....................................................................... E-1
Introduction
The Office of the Chief People Officer (OCPO) manages the General Services
Administration's (GSA) programs, policies, and operations for the agency’s
(approximately) 12,500 employees, excluding the Office of Inspector General. The
OCPO organization includes the Office of Human Resources Services, the Office of
Human Capital Management, the Office of Information Management, the Office of
Executive Resources, and the Office of Program Performance. In September 2009,
GSA Directive ADM 5440.622: Changes in Organization (GM&A) 1 transferred the
reporting of GSA’s human resource (HR) functions from Regional Administrators to the
Chief People Officer (see Appendix B – OCPO Organization Chart). While managed
centrally by the OCPO, the regional HR offices perform the day-to-day HR functions.

The GSA OCPO’s mission is: "To contribute to GSA's business success by providing
human capital management strategies, policies, advice, information, services and
solutions that are consistent with merit system principles." In an effort to achieve its
goals and stated mission, the OCPO began a Lean Hiring Reform Initiative (LHRI) in
February 2009. This initial effort led to the formation of hiring reform SWAT teams2 in
June 2009, and led to the establishment of a more comprehensive LHRI team in
January 2010. LHRI project teams were formed to address barriers and gaps in the
agency’s hiring processes, and to improve GSA’s time-to-hire metrics. 3 At the time of
our audit, 11 project teams, 4 each of which anticipated achieving its goals before the
start of fiscal year (FY) 2012, led the OCPO’s LHRI efforts.

One goal of the OCPO’s LHRI included efforts to address the President’s May 11, 2010
Memorandum on hiring reform. This memorandum, titled “Improving the Federal
Recruitment and Hiring Process” stresses that an agency’s ability to perform its mission
effectively and efficiently depends on a talented and engaged workforce. To meet the
President’s implementation deadline of November 1, 2010, the OCPO gave priority to
achieving the goals of the LHRI teams that were aligned with the requirements of the
Presidential Memorandum.

Another major initiative of the OCPO is to improve GSA’s time-to-hire by aiming to
achieve the Office of Personnel Management’s (OPM) 80-day hiring model (see
Appendix C). The OCPO relies on hiring information maintained in its GSAjobs 5 system

1
  GM&A: General Management and Administration
2
  The SWAT teams were formed to undertake hiring reform challenges addressed by OPM and the Office of
Management and Budget in June 2009.
3
  OPM unveiled the End-to-End 80-day hiring model in September 2008 as guidance for agencies to measure its
total time-to-hire for posted job vacancies.
4
  In January 2011, LHRI project teams were reviewed and re-scoped by the new Project Manager, resulting in a
reduction from 20 LHRI project goals and teams to 11.
5
  GSAjobs is the primary information system used in GSA’s hiring process. Although the system is owned and
managed by Monster Government Solutions, GSA maintains the database that captures and stores data associated
with its job announcements. GSAjobs interfaces with USAJOBS, an OPM-approved Federal web-based employment
search portal. As a result, job announcements created in GSAjobs are posted to and visible on USAJOBS.


                                                 1
to track and report hiring data to OPM; to calculate the agency’s time-to-hire metrics;
and to help identify bottlenecks and areas for improvement in the hiring process. The
data maintained and used by an organization is an important factor in managing
performance. The principle of "data quality" entails a state of completeness,
consistency, timeliness, and accuracy, all of which contribute to the validity of data
maintained for a specific use.

Objectives

The objectives of the audit were to assess: (1) the OCPO’s compliance with
requirements established by OPM and the Presidential Memorandum on “Improving the
Federal Recruitment and Hiring Process;” and (2) the efficiency and timeliness of GSA’s
hiring process (in particular, as it relates to the OPM End-to-End hiring model).




                                         2
Results
Finding 1 – Hiring data used to calculate and report GSA’s time-to-hire metrics to
OPM is unreliable.

The OCPO does not have a reliable process to obtain and report its hiring data.
Currently, data used to report time-to-hire metrics is obtained from the GSAjobs system.
However, the data extracted from GSAjobs is not always accurate or complete. As a
result, the OCPO relies on the regional HR offices to review and amend the data
extracted from GSAjobs prior to calculating and reporting its time-to-hire metrics to
OPM. The data is unreliable because the OCPO does not have standardized and
systematic processes across the regional HR offices to accumulate data in GSAjobs
and to retrieve it for reporting purposes.

We identified the following issues:

   1) Hiring data in GSAjobs is inaccurate and incomplete. Key dates, which are used
      to calculate the total time-to-hire, are not entered by the regional HR offices in a
      timely manner. This forces the OCPO to develop manual processes to
      supplement the missing data in GSAjobs. Also, the data in GSAjobs does not
      always agree with supporting documentation in the hiring case files. Without a
      process in place to ensure timely and accurate data entry, there is no assurance
      that time-to-hire metrics provided to OPM are correct.

   2) The OCPO does not provide authoritative guidance to the regional HR offices on
      what types of source documents should be used to track and calculate time-to-
      hire metrics. Consequently, regional HR offices did not always use the same
      source document to track the first step in the hiring process. Using different
      source documents results in the use of different starting dates, which can affect
      the agency’s time-to-hire metrics. For example, we identified instances in which
      the Standard Form (SF)-52: Request for Personnel Action was not used to track
      the first step in the hiring process. In some instances, other source documents
      like email correspondence, HR checklists, or other hiring documents were used.

   3) The OCPO does not provide adequate guidance on what types of hires should
      be included in the time-to-hire metrics. As a result, there was no consistency in
      the types of hires reported by regional HR specialists in the hiring data. The
      focus of OPM’s 80-day hiring model is on Delegated Examining (DE) hire types.
      The OCPO acknowledged that at different times, various combinations of DE,
      Merit Promotion (MP), permanent and temporary hires were used in its time-to-
      hire calculations.

The absence of reliable data and the failure to implement standardized processes for
regional HR offices to collect, document, and report hiring information increases the risk
of inconsistencies in time-to-hire metrics reporting. Consequently, performance metrics
maintained by the agency and reported to OPM and the public may not be reliable. As a


                                         3
result, we were unable to assess the timeliness of GSA’s hiring process because we
could not rely on the accuracy of the hiring data maintained by the OCPO.

Recommendation 1

We recommend that the CPO develop a standardized methodology for collecting,
documenting, and reporting hiring data across GSA. We further recommend that the
CPO implement procedures to verify and ensure that hiring metrics reported to OPM are
accurate.

Finding 2 – Deficiencies identified during Delegated Examining Unit (DEU) Self-
Audits were not addressed timely by the OCPO and the regional HR offices.

In accordance with the OPM Delegated Examining Operations Handbook, annual DEU
self-audits are to be conducted for each of the 11 GSA regions. The Office of Human
Capital Management is responsible for performing the audits, certifying its completion to
OPM, evaluating proposed corrective action(s), and preparing closeout memos, which
signify the end of the DEU audit process. 6 The purpose of the self-audits is to ensure
compliance with federal law and merit system principles, as well as to improve the
efficiency and effectiveness of GSA’s OCPO HR offices.

We were able to confirm that the audits were performed for FY 2010 and that their
completion had been reported to OPM. However, during our review of the FY 2010 DEU
self-audit process, we identified two concerns:

    1) Certain regional HR offices did not provide corrective actions to address
       deficiencies identified during the audits within 30 days. The regions were
       required to respond to the report recommendations within 30 days of report
       issuance. Of the 11 GSA regional HR offices, 9 were required to submit a
       response with proposed corrective actions, and 6 of these submitted their
       response up to 102 days past the 30-day due date (Figure 1). In one other region
       that was granted additional time, it took as long as six months to respond to the
       audit findings. 7

    2) Nine regions responded to audit findings; however, only two had closeout memos
       completed as of our review. According to the OCPO’s Human Resources
       Management Accountability System (HRMAS) guide, the DEU audit review team
       will assess the corrective actions taken by the regional HR office. It further states
       that if issues have not been satisfactorily resolved within 60 days of the HR
       office’s response, a report will be submitted to the OCPO. The closeout memos
       provide essential feedback to the regions regarding the self-audits and plans for


6
  The audits are to be performed by GSA OCPO staff not involved in the delegated examining (DE) activities of the
office being audited and who have received DE training.
7
  The remaining two GSA regions were not required to submit corrective actions as their audits did not result in
any findings.


                                                    4
      corrective action. The closeout memos also mark the end of the DEU self-audit
      process for the fiscal year.

                            Figure 1: Summary of Timeliness of
                                      FY 2010 DEU Self-Audits

        Regional HR                 Timely Response?                        Closeout Memo
          Division                (i.e., Received within 30 days?             Prepared?
                                If "no," number of days past due.)      (within 60 days of HR Division
                                                                                  response)
       National Capital          No                 102 days past due                No
           Division
          Region 2               No                  94 days past due                No
          Region 1               No                  23 days past due                No
          Region 6               No                  10 days past due               Yes
          Region 3               No                   8 days past due                No
          Region 5               No                   2 days past due                No
          Region 8*             Yes*                           0                     No
       Regions 9 & 10           Yes                            0                    Yes
        Talent Center           Yes                            0                     No
          Region 4                    No Audit Findings                       Not Required
          Region 7                    No Audit Findings                       Not Required


      *Region 8's response was deemed to be timely as it was granted extensions by the Office of
      Human Capital Management, which the region met. However, it took 6 months (179 days) for the
      Region to respond to the results of the audit.

The DEU self-audits are tools to help the OCPO improve efficiency in the agency’s
hiring process and to identify areas for improvement. If the self-audit process is
untimely, most particularly with respect to developing and implementing corrective
actions, the audits lose value and effectiveness. In addition, the potential risk for
repeated noncompliance and/or unresolved audit findings is increased.

Recommendation 2

To add additional value to the audit process, we recommend that the CPO improve the
system currently in place. Specifically, the CPO should enforce the HRMAS policy to
ensure that the regional HR offices respond to the results of the DEU audits within 30
days; and to ensure that corrective actions are reviewed and approved by the Office of
Human Capital Management within the required timeframe.

Finding 3 – GSA’s efforts to fully comply with the President’s Memorandum on
“Improving the Federal Recruitment and Hiring Process” should be improved.

The OCPO did not comply with two requirements of the May 11, 2010 Presidential
Memorandum (Memorandum) “Improving the Federal Recruitment and Hiring Process.”
GSA did not eliminate essay-style questions in its application process, and should


                                               5
improve its efforts to require managers’ involvement in the hiring process.

Eliminate Essay-Style Questions

GSA has not eliminated essay-style questions from its initial application process. The
continued use of essay-style questions prolongs the current "complexity" of the hiring
process. According to Section 1(a) (1) of the Memorandum, agencies shall "eliminate
any requirement that applicants respond to essay-style questions when submitting their
initial application materials for any Federal job." Continued use of essay-style questions
during the initial application process may deter qualified and desirable applicants from
applying.

GSA uses an automated hurdle assessment process to collect application materials for
its vacancy announcements. During the process, the applicants answer questions to
determine basic eligibility and qualifications, and receive an acknowledgement as to
whether or not they meet them. If deemed eligible, the applicants subsequently move on
to the next phase, which may include completing essay-style questions. According to
GSA’s vacancy announcements, applicants must respond to the essay-style questions
to receive full credit for the next phase. If the applicants do not respond to the essay-
style questions, their application could be deemed incomplete.

According to an OPM representative, agencies can incorporate essay-style questions
into the hiring process, but only after submission of the initial application. The initial
application process should be used to obtain basic information (i.e., resume, transcripts,
etc.) to determine if the applicant is qualified for additional consideration. Afterwards,
agencies may use essay-style questions to further evaluate qualified applicants. GSA’s
position is that it has removed essay-style questions from the initial application process.
However, we noted that applicants are still required to answer essay-style questions
prior to submitting their completed packages to the HR office.

Hiring Managers’ Involvement

Section 1(b) (1) of the Memorandum states that by November 1, 2010, agencies shall
“require that managers and supervisors with responsibility for hiring are more fully
involved in the hiring process….” The OCPO is developing tools and resources such as
the Strategic Conversation for Hiring Managers and the Recruitment Workload Tracking
Tool (RWTT) to facilitate compliance with this requirement. However, at the time of our
audit, these tools were not yet complete.

The Strategic Conversation for Hiring Managers seeks to facilitate the discussion
between the human resource specialist and the hiring manager regarding recruiting and
hiring highly qualified individuals. The OCPO introduced this tool in a pilot test, but it is
currently under further review. The RWTT is a web-based tool designed to provide
OCPO staff with the ability to track vacancies from the time a hiring request is made
until bringing new employees on-board. The tool will allow hiring managers to view open
vacancies to determine the status of the hiring process and to remind managers to



                                          6
perform activities in a timely manner. The tool is expected to be ready for use in all
regions by early September 2011.

Recommendation 3

We recommend that the CPO seek clarification (and/or an exception) directly from the
Office of Personnel Management, in consultation with the Office of Management and
Budget, to ensure that GSA’s use of the hurdle method in this manner is in support of
the Presidential Memorandum. Additionally, the CPO should implement its newly
developed tools and resources as quickly as possible.


Internal Controls

We limited our assessment of internal controls to those related to the hiring practices
performed throughout the OCPO and its regional HR offices. We reviewed GSA’s and
the OCPO’s hiring policies and procedures, performed audit procedures to assess the
effectiveness of the controls, and made recommendations to strengthen and improve
the controls discussed in the Results section of this report.




                                         7
Conclusion
The OCPO can improve the management of its hiring practices and procedures; its
ability to hire quality employees in a timely manner; and its compliance with Federal
hiring mandates.

Currently, the OCPO does not have a reliable and standardized process for collecting,
documenting, and reporting hiring data. Consequently, management cannot rely on this
data to make decisions necessary to improve the agency’s hiring practices.

Additionally, DEU self-audits were not addressed and closed out within the required
timeframes by regional HR offices and the Office of Human Capital Management.
Delays in addressing the corrective actions and closeout memos increase the risk for
repeat audit findings and noncompliance with Federal merit system principles. If the
audit process is untimely, the audits lose value, and the agency loses the opportunity to
improve the efficiency and effectiveness of its hiring process.

Furthermore, the OCPO is not in full compliance with the May 11, 2010 Presidential
Memorandum “Improving the Federal Recruitment and Hiring Process.” By not meeting
all the mandated requirements, the agency negates the President’s objectives to
improve the hiring process. Continued use of essay-style questions makes the
application process more complex and the hiring process is less effective and efficient
when hiring managers are not fully involved. Although the OCPO is developing
resources and tools to engage hiring managers, at the time of our audit they were under
review and not yet complete. Full compliance with the Presidential Memorandum’s
mandates will aid in improving the agency’s hiring process.




                                        8
Appendix A – Scope and Methodology
To accomplish our objectives, we:

   •   Reviewed GSA’s directives, internal policies and procedures pertaining to the
       hiring process;
   •   Conducted meetings and interviews with OCPO staff members and regional
       employees;
   •   Reviewed and assessed the progress of the OCPO’s Lean Hiring Reform
       Initiative since its 2009 inception;
   •   Reviewed guidance on hiring provided by OPM and other federal agencies;
   •   Reviewed audit reports from GSA OIG and other agencies associated with hiring
       practices;
   •   Reviewed GSA OCPO regional DEU self-audits and corrective action plans for
       FY 2010;
   •   Reviewed the President’s Memorandum – “Improving the Federal Recruitment
       and Hiring Process” (issued May 2010);
   •   Performed walkthroughs of the hiring process with regional HR offices;
   •   Reviewed customer satisfaction surveys provided by GSA hiring managers;
   •   Selected and examined a sample of DE and MP hiring files, and related vacancy
       announcements posted in GSAjobs and USAJOBS.

We conducted the audit between January 2011 and May 2011 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                     A-1
Appendix B – OCPO Organization Chart




Source: Office of the Chief People Officer (As of July 2011)




                                               B-1
Appendix C – OPM End-to-End 80-Day Hiring Model




Source: Office of Personnel Management’s End-to-End Hiring Initiative
The OCPO’s “Critical Path” merges OPM’s 14 steps into 6 time-measurable steps:
• Critical Path 1: Date received in HR to Date vacancy opened (OPM E2E Steps 1-4);
• Critical Path 2: Date vacancy opened to Date vacancy closed (OPM E2E Steps 5-7);
• Critical Path 3: Date vacancy closed to Date referred to manager (OPM E2E Steps 8-9);
• Critical Path 4: Date referred to manager to Date returned to HR (Selection) (OPM E2E Step 10);
• Critical Path 5: Date returned to HR to Date position offered (OPM E2E Step 11); and
• Critical Path 6: Date position offered to enter on duty (EOD) date (OPM E2E Steps 12-14)


                                            C-1
Appendix D – Management’s Comments




                       D-1
D-2
D-3
D-4
Appendix E – Report Distribution

Chief People Officer (C)

Director, GAO and IG Audit Response Branch (BCBB)

Assistant Inspector General for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                       E-1
